"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare) Part A,"(A-04-01-01006)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare)
Part A," (A-04-01-01006)
November 23, 2001
Complete
Text of Report is available in PDF format (1.58 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Mississippi (BCBS of MS) had generally established adequate systems for internal control, accounting
and reporting for administrative costs. Further, except for $69,546, the administrative costs for the period October 1,
1996 through September 30, 1999, were generally in accordance with Part 31 of the Federal Acquisition Regulations as interpreted
and amended by Appendix B of BCBS of MS's agreement with the Centers for Medicare and Medicaid Services.